HHS/OIG, Audit -"Review of HealthNow's Compliance with Medicare+Choice Prompt Payment Regulations During the
Period August 1, 2003 through January 31, 2004,"(A-02-04-01016)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of HealthNow's Compliance with Medicare+Choice Prompt Payment Regulations During the Period August 1, 2003
through January 31, 2004," (A-02-04-01016)
November 12, 2004
Complete
Text of Report is available in PDF format (244 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether HealthNow New York, Inc.s Senior Blue Health Plan (HealthNow) complied
with prompt payment regulations to timely pay or deny claims submitted by noncontracted providers.  HealthNow substantially
complied with Federal prompt payment regulations for claims submitted by noncontracted providers and paid over 95 percent
of clean claims within 30 days of receipt.  However, HealthNow did not pay or deny some claims within 60 days
of receipt.  We recommended that  HealthNow ensure that all claims are paid or denied within 60 days of receipt.  HealthNow
concurred with our findings and recommendations.